<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES FISCAL YEAR 2000 PRESIDENT'S BUDGET AMENDMENT</title>
<body><pre>[Senate Hearing 106-223]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-223


 
DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
         AGENCIES FISCAL YEAR 2000 PRESIDENT'S BUDGET AMENDMENT

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

                      COMMITTEE ON APPROPRIATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                               __________

         Printed for the use of the Committee on Appropriations

                               <snowflake>

 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate

                                 ______

                      U.S. GOVERNMENT PRINTING OFFICE
 59-960 cc                   WASHINGTON : 1999
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402
                            ISBN 0-16-059719-6



                         COMMITTEE ON APPROPRIATIONS

                        TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             FRANK R. LAUTENBERG, New Jersey
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
JON KYL, Arizona
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

   Subcommittee on Commerce, Justice, and State, the Judiciary, and 
                            Related Agencies

                  JUDD GREGG, New Hampshire, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
PETE V. DOMENICI, New Mexico         DANIEL K. INOUYE, Hawaii
MITCH McCONNELL, Kentucky            FRANK R. LAUTENBERG, New Jersey
KAY BAILEY HUTCHISON, Texas          BARBARA A. MIKULSKI, Maryland
BEN NIGHTHORSE CAMPBELL, Colorado    PATRICK J. LEAHY, Vermont
                                     ROBERT C. BYRD, West Virginia
                                       (ex officio)
                           Professional Staff
                              Jim Morhard
                             Kevin Linskey
                               Paddy Link
                               Dana Quam
                              Clayton Heil
                         Lila Helms (Minority)
                         Emelie East (Minority)
                     Eric Harnischfeger (Detailee)
                         Tim Harding (Detailee)


                             C O N T E N T S

                              ----------                              

                         DEPARTMENT OF COMMERCE
                          Bureau of the Census

                                                                   Page

Statement of Kenneth Prewitt, Director...........................     1
    Prepared statement...........................................     3
Overview.........................................................     3
Field data collection and support systems........................     4
Address list development.........................................     5
Automated data processing and telecommunications support.........     5
Puerto Rico, Virgin Islands and Pacific areas....................     5
Marketing, communications and partnership........................     5
Current operations...............................................     6
Constitutional directive on the census...........................     6
Census categorized as emergency..................................     7
Census spending rate.............................................     7
Use of immigrant enumerators.....................................     8
Advertising budget...............................................     8
Supplemental funding.............................................     9
Productivity.....................................................    10
Additional committee questions...................................    10
Questions submitted by Senator Judd Gregg........................    11
    Funding increases associated with court cases................    11
    Effects on CENSUS 2000 of a fiscal year 2000 continuing 
      resolution.................................................    12
Questions submitted by Senator Ted Stevens.......................    15
Question submitted by Senator Pete V. Domenici...................    16
Question submitted by Senator Kay Bailey Hutchison...............    16
Question submitted by Senator Daniel K. Inouye...................    18

                          DEPARTMENT OF STATE

Statement of Patrick F. Kennedy, Assistant Secretary of State for 
  Administration.................................................    19
Highlights of State's acquisition and construction program.......    19
Budget request for State's security construction program.........    20
Prepared statement of Patrick F. Kennedy.........................    21
Questions and answers............................................    22
Downsizing the size and number of embassies......................    23
Improving security at ``soft'' targets...........................    24
Offsets..........................................................    24
Mr. Kennedy's response...........................................    24
Additional committee questions...................................    25
Questions submitted by Senator Judd Gregg...................25<greek-l>

                                  (iii)


DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
         AGENCIES FISCAL YEAR 2000 PRESIDENT'S BUDGET AMENDMENT

                              ----------                              


                        THURSDAY, JULY 29, 1999

                           U.S. Senate,    
    Subcommittee on Commerce, Justice, and 
                                     State,
               the Judiciary, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:03 a.m., in room S-146, the 
Capitol, Hon. Judd Gregg (chairman) presiding.
    Present: Senators Gregg and Stevens.

                         DEPARTMENT OF COMMERCE

                          Bureau of the Census

STATEMENT OF KENNETH PREWITT, DIRECTOR
ACCOMPANIED BY:
        JOHN THOMPSON, DIRECTOR OF DECENNIAL
        NANCY POTOK, PRINCIPAL ASSOCIATE DIRECTOR AND CHIEF FINANCIAL 
            OFFICER


                            opening remarks


    Senator Gregg. OK, we'll begin the hearing with Ken 
Prewitt, the head of the Bureau of the Census. The problem we 
have, Doctor, is that we're in the middle of votes, so we have 
to come and go. Since Senator Hollings is not here, I will 
reserve his opening statement until he gets here. I am not 
going to make an opening statement.
    Do you wish to make an opening statement or should we get 
right to questions?
    Mr. Prewitt. I have one. I am prepared to make it.
    Senator Gregg. All right. Why don't you just summarize what 
you think we should know and then we will move on?


                           opening statement


    Mr. Prewitt. I would like to say thank you for the hearing. 
I would like to say we also would like to recognize the 
important action by the House subcommittee to nearly fully fund 
the decennial census. That did include language which we would 
like to bring to your attention and that of your staff, which 
if left standing would severely impede the ability of the 
Census Bureau to carry out the census.
    It has to do with a reprogramming provision which we simply 
dispute and have disputed in the past when this has come up, so 
we would urge this committee to look hard at that language and 
address it. I am happy to answer questions about it as we go 
through the testimony.
    As you know, we are here asking for a supplemental of 
approximately $1.7 billion, which is largely driven by the 
Supreme Court decision where a few items totaling approximately 
5 percent, which we would not attribute to the Supreme Court 
decision, but about 95 percent of this money is directly the 
response to that.
    It really has to do with the problem of completeness and 
accuracy. We had a design which used the integrated coverage 
measurement procedure to both find and correct for any cases we 
missed in the basic census and which corrected for inaccuracies 
in the census. And since that procedure was ruled inconsistent 
with the statute, we have removed that procedure, of course, 
from the design, which means we now have to come back and do a 
lot of additional things in order to make certain that we both 
have completeness and accuracy.
    I would like to just stress that we need these funds in a 
timely fashion, since this is not something that you can sort 
of start and stop. The train has left the station and to even 
delay it for a matter of a few days would, in ways that I can 
describe, severely impede our capacity to complete the census.
    Just one big point I would like to make, Senator, to put 
the whole thing in context if I may, it is frequently said that 
the Census Bureau--we say it ourselves; the press says it; the 
Senate says it; Congress says it--that the Census Bureau missed 
so many people in 1990 and so forth, 8.5 percent of the 
population we missed.
    Well, that is correct but not very informative. The real 
fact is a large proportion of the American population does not 
cooperate with the census. That is what the money is about. The 
money is to solicit and create cooperation among large parts of 
the population that do not cooperate.
    Our mail response rate in 1970 was 85 percent. In 1980 it 
was 75 percent. In 1990 it was 65 percent. We are looking at 
perhaps 61 percent in 2000. That means more than 100 million 
people we have to go out and find.
    So it is really the lack of cooperation on the part of the 
public that drives these costs up, not, I would like to say, 
particular errors or omissions or mistakes by the Census Bureau 
itself. I do not say this defensively; I only say this because 
that is the context.
    Now that means we have an enormous workload, we have to 
hire many more people, we have to put in all kinds of quality 
control procedures, all of which I can respond in detail to you 
if you wish in the testimony.
    And I will just conclude by saying that I said the census 
has left the track and it is picking up steam. We have been on 
what we call kind of the road to July, which is to say what do 
we have to have in place by today, by the end of this month, in 
order to make certain that come April 1, we are where we need 
to be?
    And I would like to report that we are in very good shape 
with respect to the kinds of things we need to have finished in 
order to do a quality census in April. We have completed our 
address list development activities. We have visually spotted 
with our own staff 99 percent of the housing units in the 
country. We are working with local officials right now to 
resolve any remaining conflicts about address lists and we are 
on schedule in that work. We have awarded 35 printing 
contracts. Over 180 million forms are already printed and 
delivered to our redistribution center. And just at the end of 
this week we will be cutting the first phase of our computer 
file addresses for the printing address work.
    We have opened 130 local offices and we are on schedule for 
opening the remaining 280, which have to be up, staffed, and 
running by October 1.
    Our regional census centers are open. We have opened in 
fact, as of today, two of our data capture centers; one in 
Baltimore, one in Jeffersonville, Indiana. And we are on 
schedule for opening up our remaining two. These are very big, 
major operations where we do all of our optical scanning work.
    We have completed the early production work on all of our 
media campaign. We have our partnership program up and running. 
Over 22,000 partnerships have already been signed up, 
partnership specialists in our various offices and so forth.
    So on a whole number of rather specific procedures that 
have to be done by July 1999 to be intelligently in the field 
by early winter of 2000, I am happy to report that we are 
actually on schedule.

                           prepared statement

    That was a quick summary of my written testimony, and we 
can turn to questions if that is your preference.
    [The statement follows:]
                 Prepared Statement of Kenneth Prewitt
    Senator Gregg, Senator Hollings and members of the Subcommittee: 
Good morning, Mr. Chairman and thank you for the opportunity to appear 
before you today to discuss the Bureau's proposed fiscal year 2000 
budget amendment for Census 2000. I am pleased to be here to share with 
you the reasons why this additional funding is necessary, and to let 
you know how much I appreciate the attention you've given Census 2000. 
I would like also to acknowledge the nearly full funding for Census 
2000 provided by the House Appropriations subcommittee in their mark-up 
of our fiscal year 2000 request. And, I would like also to express my 
gratitude to this Committee for recognizing that the rest of the Census 
Bureau must continue its critical work in the economic and demographic 
areas while Census 2000 takes place. We appreciate the funding for the 
non-decennial census programs provided in the Senate Appropriations 
bill, and strongly urge the Committee to maintain that level of funding 
when the bill is conferenced with the House bill because of the 
disparity between your level of support and that provided in the House 
Appropriations subcommittee mark-up.
                                overview
    The Census Bureau is requesting an amendment to the fiscal year 
2000 budget for the decennial census totaling $1.723 billion, bringing 
the total request for the decennial census to $4.512 billion. The 
additional funding requested is a direct result of the January 25, 1999 
Supreme Court ruling that statistical sampling could not be used in 
Census 2000 to determine the population count used to reapportion seats 
in the House of Representatives. There are also a few low-cost 
improvements based on recent dress rehearsal evaluations and lessons 
learned from developing the address list. I am sure that you are well 
aware of the impact the Court ruling had on our previous plan for 
conducting Census 2000, and that you also understand that Census 2000 
was already in process when this ruling was handed down. The Bureau 
responded quickly to this ruling, preparing a revised operational plan 
by mid-March. Completion of the revised plan permitted the Bureau to 
reassess its funding needs and prepare the amendment you have before 
you today.
    There are two primary reasons for the amended budget request: to 
improve the accuracy and completeness of the count without sampling 
we've added new operations designed to enumerate households not 
otherwise included in the census, and we've significantly increased the 
level of quality assurance on existing operations that affect the 
accuracy and completeness of the count. But before I outline for you 
the major components of the revised plan for which additional funding 
is required, I should note the importance of Congress providing 
adequate funding for Census 2000 in a timely manner. As I will explain 
in my testimony, Census 2000 is well underway. The train has left the 
station. We cannot park this train on October 1, even for a few days, 
without severe consequences to the schedule and accuracy of the census. 
For example, October 1 is a critical date for buying air time for our 
campaign scheduled to launch Census 2000 media advertising in November. 
Even a day or two delay will cause us to miss out on bidding for prime 
advertising time, seriously diluting the effectiveness of the campaign. 
Other field operations also cannot be interrupted without causing 
severe disruptions in the census.
               field data collection and support systems
    By far the most important aspect of this new, revised plan and for 
which we're now requesting the largest increase is in our field data 
collection activities and support systems. In this component alone 
we're requesting an additional $1.451 billion, or 84 percent of the 
total.
    A 100 percent nonresponse followup operation increases the total 
expected door-to-door workload from thirty million housing units in our 
earlier design to forty-five million housing units--that is, about a 
fifty percent increase in the number of housing units that must be 
visited, many on more than one occasion, because they will not have 
returned a census questionnaire through the mail. This workload 
increase over the previous census design requires an additional four 
weeks of labor-intensive field work, for a total of ten weeks, to 
complete this nation-wide effort. Because of the significant increase 
in the housing units to be visited, we must seek out many more people 
willing to take a temporary job knocking on doors. We will review and 
screen about 1,000,000 more applicants than expected under the previous 
plan, in order to reach our ultimate yield of about 800,000 qualified 
candidates. And, because of the increase in the number of housing units 
to be enumerated and the need to hire hundreds of thousands more 
applicants, resulting in lower overall skill level, we expect the 
average productivity of the temporary workforce to decrease from 
previous estimates. The combination of the increased workload and lower 
productivity estimates requires $938 million to put more people on the 
streets for a longer period of time to ensure we count the entire 
population where they live.
    We require an additional $229 million to put into place a thorough 
effort to improve operational coverage. By that I mean we must include 
extraordinary measures to improve the quality of the census data by 
including both a program for checking on an estimated seven and a half 
million housing units initially classified as either vacant or non-
existent and for visiting areas of new construction where the address 
list completed earlier would not have picked up new housing units.
    There are also other critical activities we must conduct to improve 
the accuracy and completeness of census data for apportionment without 
sampling. For example, because the 1998 Dress Rehearsal coverage 
evaluation for Columbia, South Carolina indicated a high probability 
for seriously undercounting rural areas, we've enhanced quality 
assurance procedures in the final update of the address list for rural 
areas. There are also more people in segments of the population in 
special circumstances that require increased effort if we are to have a 
complete and accurate count without sampling. These segments are often 
the most difficult to count. Included are those in urban and rural 
areas where standard procedures are not effective and thus require 
special procedures. Then there are the linguistically isolated, people 
in shelters, and that segment of the population now living in group 
homes or quarters. These operations require about $214 million.
    We're also increasing the infrastructure needed to support these 
many expanded operations. This requires about $279 million, providing 
for forty-four additional offices in order to effectively distribute 
the increased nonresponse followup workload, increases in office space 
and staff for the originally planned four hundred seventy-six offices, 
as well as outfitting the new and expanded offices with all the 
equipment and supplies necessary to conduct the field operations and 
administratively support a workforce in excess of eight hundred 
thousand enumerators and supervisors. We will also keep all five 
hundred twenty field offices open one month longer than originally 
planned, and we must expand the telecommunications capabilities of all 
field offices to accommodate the significant increase in the data 
transmission requirements associated with one hundred percent 
nonresponse followup and to handle the administrative data such as 
payroll for the much expanded workforce. Finally, we expect that, 
because we're expanding the media and promotional aspects of the Census 
2000 effort, the number of telephone inquiries will increase 
significantly, necessitating expansion of the contractor-operated 
Telephone Questionnaire Assistance operation.
    As a direct result of the Supreme Court ruling prohibiting the use 
of sampling for determining the population count used for apportioning 
Congressional seats, we redesigned the Accuracy and Coverage Evaluation 
to now restrict the focus to all other uses of census data. This 
allowed a reduction in the number of housing units to be included in 
the survey from seven hundred fifty thousand to about three hundred 
thousand. In terms of field costs we expect this operation to cost 
almost $209 million less in 2000 than the Integrated Coverage 
Measurement survey.
                        address list development
    Continuing updates for the Master Address File are fundamental to 
the preparations for mailing to and following up on housing units from 
which we do not receive a questionnaire. The Bureau must conduct a 
comprehensive, just-in-time address list update to include all newly-
constructed housing units. This includes preparing and shipping 
additional address lists and maps, and then updating the geographic 
database with information provided by government units and other 
community entities participating in the new construction program. We 
will also launch a new operation to locate the correct address for 
people with multiple residences and people who have moved during the 
now extended data collection period. These address listing operations 
account for about $10 million of the increased funding requirement.
        automated data processing and telecommunications support
    Because the redesigned census operations will increase the data 
capture workload by an estimated twenty three million forms and 
questionnaires, the Bureau must extend operations by two months at all 
four data capture centers to ensure adequate opportunity to acquire the 
data through the ATA capture operation and conduct quality assurance 
activities. The equipment, software licenses, and telecommunications 
infrastructure for Census Bureau headquarters and in the National 
Processing Center in Jeffersonville, Indiana also must be expanded to 
handle increased data processing and data transmission requirements 
associated with the expanded volume and complexity of census data and 
the need to monitor more closely a much larger overall census 
operation.
    The increased processing volume and extended and expanded 
operations requires $136 million, which has been offset by a $5 million 
reduction in the processing requirements of the Accuracy and Coverage 
Evaluation relative to the earlier design.
             puerto rico, virgin islands and pacific areas
    The funding required for Puerto Rico, the Virgin Islands and the 
Pacific Territories has increased by just over $34 million. The largest 
contributing factor is that the one hundred percent nonresponse 
followup requirement increases the workload in Puerto Rico by an 
estimated 140,000 units. Comparable to enumeration activities of the 
fifty states and the District of Columbia, we'll conduct added coverage 
improvement operations, expand field infrastructure, increase 
telecommunications capability, add staff, and expand other activities 
such as recruiting. Operations in Puerto Rico account for $25 million 
of this increased funding requirement. In addition, recently revised 
estimates we have received for the work to be done in the Island Areas 
will cost $9 million more.
               marketing, communications and partnership
    For the Bureau's program to reach out to the American people 
through advertising and other mediums, we're requesting an additional 
$88 million. The bulk of this increase is associated with additional 
media messages, expanded promotion activities designed to achieve a 
higher level of responsiveness from those segments of the population 
traditionally most difficult to enumerate, and increases for the Census 
in the Schools program. These changes account for roughly $73 million. 
One of the new media messages is designed for late Fall and early 
Winter to educate the American people about the census and the benefits 
to their communities. The second new media message is designed to 
encourage cooperation with field interviewers when they are following 
up on housing units from which no questionnaire was returned. The 
remaining additional $15 million is to provide expanded promotion and 
outreach to State, local and tribal governments and community-based 
organizations. This funding primarily will be directed to in-kind 
support such as posters, defrayment of printing costs, and other 
activities which encourage local participation in all aspects of Census 
2000.
                           current operations
    Earlier in my statement I indicated that I would briefly outline 
some significant accomplishments of ongoing Census 2000 operations.
  --Since fiscal year 1999 began, we've completed planned address list 
        development activities in both rural and urban areas, including 
        a visual spotting of about 99 percent of housing units in the 
        country. Work is continuing with local officials to resolve 
        potential address list conflicts.
  --We've awarded 35 printing contracts and over 180 million forms are 
        already printed, and we're currently preparing the computer 
        file of addresses to be used for printing addresses on the 
        questionnaires that we will mail or deliver next March.
  --We've opened and staffed 130 Local Census Offices and have leased 
        space for 380 of the remaining 390 offices. Leases for the 
        remaining 10 offices will be executed before the end of the 
        Summer. These offices will begin opening this Summer and all 
        offices will be occupied by October 1, 1999, with management 
        and support staff in place.
  --We've opened and staffed the Regional Census Centers, which are the 
        twelve temporary offices that will monitor operations at the 
        Local Census Offices, collecting not only the operational data 
        but maintaining the administrative support such as the daily 
        payroll updates for all offices. These offices must remain open 
        through completion of all Census 2000 field work.
  --We've opened the Baltimore, Maryland data capture center and are in 
        the process of testing and proving in the equipment and 
        software there. And today we're opening the data capture center 
        at our National Processing Center in Jeffersonville, Indiana. 
        We're also working on final preparations for opening the two 
        remaining data capture centers, in Pomona, California in 
        October and Phoenix, Arizona in November in order to conduct 
        necessary testing in preparation for Census 2000.
  --We've overseen the design of the television advertising, and our 
        contractors are filming and producing the ads. The schedule for 
        purchasing air-time is complete, and we're making purchases.
  --Finally, the partnership activities are continuing at an increasing 
        pace, with approximately 22,000 agreements already in place. 
        Over 400 partnership specialists have been hired to promote the 
        census at a grassroots level.
                               conclusion
    Census 2000 is well underway, with many critical activities 
accomplished, and I'm pleased to report, on schedule. However, the 
success of Census 2000 depends on continuing scheduled activities at an 
ever accelerating pace through the balance of fiscal year 1999 and on 
into fiscal year 2000. Without the additional funding we are 
requesting, it will not be possible to carry out a fair and accurate 
census. With your continued attention to the critical nature of census 
activities and the timely manner in which funds are provided, we can 
maintain the pace necessary to accomplish what is required to fulfill 
our Constitutional duty to provide census data.
    Again, thank you for this opportunity to express our additional 
funding needs. I will be happy to answer any questions you may have 
about this request or any other aspect of Census 2000 operations.

                 Constitutional directive on the census

    Senator Gregg. That is great, and I appreciate that 
summary.
    You said you are happy with the House number, which is $4.1 
billion? $4.5 billion?
    Mr. Prewitt. $4.5 billion, right.
    Senator Gregg. Now the Constitution requires us to do a 
census, right?
    Mr. Prewitt. Yes, sir.
    Senator Gregg. What are the terms in the Constitution? What 
is the constitutional directive on the census?
    Mr. Prewitt. The constitutional directive on the census is 
that we should, by law, as passed by Congress and signed by the 
President, of course, we should count all of the residents in 
the United States as of a certain reference date. The current 
reference date is April 1.
    Senator Gregg. Didn't the Constitution set a date for when 
the census should be? Every 10 years?
    Mr. Prewitt. Oh, yes. The decennial census, of course.
    Senator Gregg. So by law and by the terms of the 
Constitution, we do a census every 10 years?
    Mr. Prewitt. Yes, sir.
    Senator Gregg. And the last census we did was in 1990?
    Mr. Prewitt. Yes, sir.
    Senator Gregg. So we are going to do a census in the year 
2000?
    Mr. Prewitt. Yes.

                    Census categorized as emergency

    Senator Gregg. So I guess I would have to ask you is this 
an unexpected emergency that we are going to do a census in the 
year 2000?
    Mr. Prewitt. It is not unexpected that we would do a census 
in 2000. We have been planning for it since 1991.
    Senator Gregg. Is it an emergency that we are going to do a 
census in the year 2000?
    Mr. Prewitt. I think I would only constitute it as an 
emergency if indeed we did not get the funding that we need for 
2000.
    Senator Gregg. I appreciate your support for the House 
number, but I would note that it was done in terms of an 
emergency, and we define emergency around here as an 
unforeseeable event of extraordinary, catastrophic proportions. 
When the Constitution, since time immemorial, calls for a 
census every 10 years, it is hard to see how we could 
categorize it as an emergency.
    Now, you said you need the money in a timely way, which I 
can understand, but my question to you is, do you have a spend-
out rate for the $4.5 billion?
    Mr. Prewitt. A cash flow model?
    Senator Gregg. Beginning October 1?
    Mr. Prewitt. Yes, sir.
    Senator Gregg. What would that be approximately?
    Mr. Prewitt. What number we would need?

                          Census spending rate

    Senator Gregg. What percentage of those dollars are you 
spending in the first quarter, the second quarter, and the 
third quarter of next year?
    Mr. Prewitt. We can do that rather specifically----
    Senator Gregg. Just a general idea and then I would like to 
get the specific cash flow spend-out rate.
    Mr. Prewitt. Surely. Right now in the advertising budget, 
because of the way the early buys work, a very high percentage, 
$71 million out of the $88 million that are requested in the 
supplemental, we actually need that on October 1 because we 
launch our campaign in November and the buys occur as of 
October 1.
    Senator Gregg. But money is fungible, so what I want to 
know is if on October 1 you have $3 billion committed, at what 
point do you run out of that $3 billion?
    Mr. Prewitt. If on October 1 we have $3 billion, we would 
easily get through the first quarter.
    Mr. Thompson. The bulk of the money really takes place 
between March and July.
    Senator Gregg. And your name is?
    Mr. Prewitt. I'm sorry. John Thompson, Director of the 
Decennial.
    Senator Gregg. So between March and July you will need 50 
percent of the dollars that would be appropriated for the next 
year?
    Mr. Prewitt. Approximately. That is our huge labor cost. 
More than 50 percent. We have 860,000 people on the streets 
during that key period because of the lack of cooperation, and 
the huge cost of any census is the labor costs. There are other 
big costs but that is the high-ticket item.

                      Use of immigrant enumerators

    Senator Gregg. Now the INS--you put out a statement that 
you were going to use illegal immigrants to count. Obviously, I 
presume that is a SNAFU.
    Mr. Prewitt. Well, we certainly did not put out a statement 
about using illegal immigrants.
    Senator Gregg. The language was essentially that you would 
be using people who were not here legally. But in any event, 
that was corrected. There was a clarification issued which says 
you are now going to use legal immigrants. I guess the INS has 
told us that that is going to create problems because it will 
make nonresident alien status of these individuals who become 
illegal under the proposal that you put forward. Are you 
familiar with this?
    Mr. Prewitt. Yes, sir. If I could start at the start of 
this question, I cannot believe the Census Bureau issued 
anything saying that it would use illegal--we have to talk 
about the language but that has never been our intention or 
even our thought.
    Second, with respect to if there was anything in our 
provisions which INS is not bringing to our attention which 
could sort of put at risk the legal status of somebody who does 
have a right to work, we clearly would not do that. We will sit 
down with INS and work that out in a minute. So it is not our 
intention to put anyone at risk at all with respect to their 
immigrant status.
    Senator Gregg. OK. So you are going to sit down with INS 
and clarify----
    Mr. Prewitt. If there is an issue here, certainly.
    Senator Gregg. Well, there is an issue.
    Mr. Prewitt. Well, we will certainly sort it out.
    Senator Gregg. At least according to the INS there is an 
issue.
    Mr. Prewitt. We will work it out with them quickly.

                           Advertising budget

    Senator Gregg. We have both agencies, so we hear from both 
sides.
    Now on the advertising budget, you say you are going to 
spend it early. How are you going to spend it?
    Mr. Prewitt. It is a budget in which the bulk of it, 64 
percent of it, is spent on media buys, and we have done a few 
of what we call early buys.
    Advertising space is limited and people, like Ford Motor 
Company or Nike or whatever, they buy big pieces of it going 
into the future. Then they open what could almost be like a 
spot market on a monthly basis and that is the residual, what 
is left over from the major buys that have already been done by 
the large buyers.
    And October 1 is the day on which we need to be purchasing 
what will be the key ads that will be running in November, 
December, January, which is our educational campaign. And our 
advertising contractor, Young & Rubicam, tells us that if we 
miss by even as much as a couple of days, they get the left-
overs.
    Senator, if I can just take a second, in 1990 we ran the 
advertising campaign with pro bono advertising and it had the 
consequence that it appeared at 2 o'clock in the morning, off-
hours and so forth. We have now gone into a paid advertising 
campaign. It would be ironic, having spent a great deal of 
money, maybe $166 million of paid advertising, if we were left 
with the residual which was 2 o'clock in the morning. We need 
to be able to get in that early buy market and into that spot 
market on schedule to make sure that we are not left with poor 
spots or poor placement in the print media and so forth.
    What they are telling us based upon their own analyses is 
that nearly all of their expenditures, $71 million of it, they 
need that--that market opens for the people who are there 
immediately buying time and buying space.
    Senator Gregg. Now who are you contracting with for this 
advertising?
    Mr. Prewitt. The prime contractor is Young & Rubicam, and 
they have four subcontractors.
    Senator Gregg. And is that a competitive bid?
    Mr. Prewitt. Yes, sir, very, very competitive. We ran that 
as an RFP. We ran that with a presolicitation conference. We 
ended up with 11 applicants. We brought them all in, looked at 
their work. That was reduced to four. They came in, they made 
verbal presentations and from the four, we chose the one on a 
rating system that had very, very heavy sort of technical 
advice and supervision. So a very competitive process, which 
was awarded on time and had no complaints whatsoever from any 
of the nonwinners.

                          Supplemental funding

    Senator Gregg. I am wondering why we did not get that 
request in the supplemental, since you knew it was going to 
be----
    Mr. Prewitt. We put a request in the supplemental for extra 
advertising money. Part of the $44.9 million that you got in 
the 1999 supplemental was for early buys and that money was 
provided, and we really appreciate that because we did our 
early buys in July.
    We are now into, as I say, a spot market. The fiscal year 
starts on October 1 and if we have the money on October 1, we 
are in good shape.
    Senator Gregg. Well, you will have a gross sum that is 
fungible, so you will have the money.
    Mr. Prewitt. Yes, if it is fungible.

                              Productivity

    Senator Gregg. Now we have been advised that you have had a 
significant drop-off in productivity expectations with people 
that you are hiring. Is that true?
    Mr. Prewitt. When we did our initial budgeting, we 
obviously had to make estimates about productivity, and we were 
looking at an employment pool of about 560,000 people. We are 
now up to 860,000.
    As soon as you add additional manpower to the labor pool, 
manpower or womanpower to your labor pool, you end up dipping 
deeper into who is available. And we made a judgment, based 
upon that, that we are likely to get lower productivity from 
the total labor pool, which has now gone up by, as I say, 
nearly 300,000 people.
    We have also imposed some added burdens on them, sir, which 
had to do with the Supreme Court decision--quality control, 
coverage things. We have made them do things which we did not 
have in our initial design, and it takes longer to do those 
kinds of things. For example, we are now doing a quality check 
on the work of the enumerators in a particular part of our 
operations.
    So it is not that their productivity has declined; it is 
that we have redesigned a study, redesigned the way we are 
going to conduct the census and calculated the productivity of 
that design.
    Senator Gregg. I have three minutes to get to a vote. 
Rather than keep you here while I vote and then come back, 
there are a few things I would like to know specifically. I 
would like to get the specifics on, by categories, how much of 
the increase the court cases cost, which I am sure you have 
already done.
    Mr. Prewitt. Yes, sir, we have done that.
    Senator Gregg. The 300,000 extra people--when they are 
going to be coming to work; how much they are going to cost; 
and the flow chart for spendout. Those are the things.
    Mr. Prewitt. We can do that in 24 hours.
    Senator Gregg. I am sure you can. Twenty-four hours is fine 
or a week is fine. We are not going to be resolving this 
tomorrow.
    Mr. Prewitt. We can get it to you immediately.
    Ms. Potok. We need a little more time for the spendout.
    Senator Gregg. Unless you want a tax cut in the next 24 
hours, it is probably not necessary.

                     Additional committee questions

    OK, I appreciate your time and I thank you and I understand 
that you are sort of between a rock and a hard place, and we 
will try to figure out a way to expedite you out of that.
    Mr. Prewitt. Thanks.
    Senator Gregg. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Bureau for response subsequent to the 
hearing:]
               Questions Submitted by Senator Judd Gregg
             funding increases associated with court cases
    Question. Please provide a breakout of this request by category, 
and explain how much of the funding increase is associated with the 
court cases?
    Answer. Approximately 93 percent of the $1.7 billion funding 
increase is associated with the January 25, 1999 Supreme Court decision 
prohibiting the use of statistical sampling in Census 2000 for 
determining the population count for purposes of reapportioning 
Congressional seats. The following explains the major categories of the 
increase, and identifies how much in each is not related to the Supreme 
Court decision.
Field Data Collection and Support Systems
    By far the largest and most important increase is in our field data 
collection activities and support systems. In this component alone 
we're requesting an additional $1.45 billion. Of this amount 
approximately $98 million is not related to the Supreme Court decision, 
but is based on information learned after the decision from our 
continual review and analysis of field logistics and communications 
requirements, the recent completion of Dress Rehearsal evaluations, and 
completion and evaluation of the address listing operations in late 
Spring 1999.
    The vast majority of the increase, about $938 million, is required 
due to the increased nonresponse follow-up workload and expected lower 
productivity from the much larger workforce. The nonresponse follow-up 
workload is expected to increase by 15 million housing units.
    We also need $229 million to put into place a thorough effort to 
improve operational coverage. This amount is to provide for new and 
extraordinary measures to improve the quality of the census data.
    Another $214 million is for critical activities we must conduct to 
improve the accuracy and completeness of census data. These activities 
focus on improving the counts in geographic areas or segments of the 
population either traditionally difficult to enumerate or that have 
experienced significant growth since the 1990 census.
    We're also increasing the infrastructure needed to support the 
expanded field operations, which requires about $279 million. In 
addition to more field offices, funding is needed to add staff to 
administratively support and manage the greatly expanded operations, as 
well as provide for having to keep the field offices open longer.
    Finally, the request reflects the redesigned Accuracy and Coverage 
Evaluation by eliminating about $209 million from the original request.
    This is reflective of the reduction in the number of housing units 
in the survey from 750,000 to about 300,000.
Address List Development
    After reviewing the Dress Rehearsal results, the Bureau decided to 
conduct a comprehensive, just-in-time address list update to include 
all newly-constructed housing units. We will also launch a new 
operation to locate the correct address for people with multiple 
residences and people who have moved during the now extended data 
collection period.
    These address listing operations account for about $10 million of 
the increased funding requirement. About $1.4 million is not related to 
the Supreme Court decision, but rather the New Construction program.
Automated Data Processing and Telecommunications Support
    The increased data processing volume and extended and expanded 
operations requires an additional $136 million. The request includes an 
offset of approximately $5 million due to reduced workload associated 
with the Accuracy and Coverage Evaluation relative to the earlier 
design. All of this increase is related to the Supreme Court decision.
Puerto Rico, Virgin Islands and Pacific Island Areas
    The funding required for Puerto Rico, the Virgin Islands and the 
Pacific Territories has increased by just over $34 million. The single 
largest contributing factor is that the one hundred percent nonresponse 
follow-up requirement increases the workload in Puerto Rico by an 
estimated 140,000 units.
    About $13.3 million for Island Areas MOUs is not related to the 
Supreme Court decision, but rather to recent input from the Island Area 
governments.
Marketing, Communications and Partnerships
    For the Bureau's program to reach out to the American people 
through advertising and other media, we're requesting an additional $88 
million. This increase is associated with additional media messages, 
expanded promotion activities designed to achieve a higher level of 
responsiveness from those segments of the population traditionally most 
difficult to enumerate, and increases for the Census in the Schools 
program. All of this increase is related to the Supreme Court decision.
   effects on census 2000 of a fiscal year 2000 continuing resolution
    Question. What funding is needed and why for the early portion of 
fiscal year 2000 if there is a continuing resolution?
    Answer. A continuing resolution that does not fully fund fiscal 
year 2000 spending needs, even for a single day, will have deleterious 
and potentially disastrous effects on Census 2000. In October 1999 the 
Census Bureau projects that it will need $189.5 million, more than 
twice as much as the approximately $92 million per month that would be 
provided under a fiscal year 2000 Continuing Resolution at the fiscal 
year 1999 spending levels. Under these circumstances, the Census Bureau 
could not conduct key activities when planned, thereby increasing the 
risk to Census 2000. Among the key activities are advertising media 
buys, temporary field staff recruiting, final development and 
deployment of the systems and processes to support capturing 
information from the Census 2000 questionnaires, shipment of kits and 
supplies to support data collection in the local census offices, 
development and deployment of the systems and processes needed to 
support the Census 2000 telephone questionnaire assistance program, and 
preparations for the Island Areas data collection effort.
Advertising Media Purchases:
    A continuing resolution at the fiscal year 1999 spending levels, 
even for one day, would seriously disrupt the effectiveness of the 
Census 2000 advertising campaign. By October, major long-term 
advertisers will have already bought a significant portion of the fixed 
media inventory for the period during which we must run the Census 2000 
campaign. Short-term advertisers can only begin buying the remaining 
inventory at the beginning of each month. As such, we will be competing 
against many other purchasers. If we cannot begin buying on October 1, 
we will not be able to purchase the slots we need to get the right 
message to the right people at the right time. Any delays in fiscal 
year 2000 funding would have a serious negative impact on our 
advertising campaign.
Recruiting:
    The current Census 2000 design, which incorporates a 100 percent 
nonresponse follow-up, requires us to recruit an unprecedented number 
of temporary field workers. To attract the very large number of workers 
that we will need to staff the nonresponse follow-up and other major 
data collection operations in fiscal year 2000, we must mount a major 
national recruiting campaign. Media buys for the recruiting campaign 
must begin in early October, for the same reasons that we must begin 
media buys for the census advertising campaign. Any delay in funding 
would seriously jeopardize our ability to staff the Census 2000 data 
collection operations, thus, putting the entire census effort at risk.
Preparation for Data Capture:
    A continuing resolution at fiscal year 1999 funding levels could 
disrupt funding of critical contracts that support activities required 
to capture the information from over 100 million Census 2000 
questionnaires. Our plans call for funding the Data Capture System 
(DCS2000) contract to complete systems development and deployment of 
systems and equipment for optical scanning of the questionnaires in 
four data capture facilities opened during 1999. The current plan also 
calls for funding the Data Capture Services Contract (DCSC) to carry 
out operational tests, finalize operational procedures, recruit staff, 
and maintain the facilities for the large (200,000 square foot) centers 
that will house the DCS2000 equipment. Any reduction in funding these 
contracts would seriously jeopardize the contractors' ability to 
complete testing; systems development and installation; and recruiting 
of key management and production staff in time to have a fully 
functional data capture system in place by March 2000.
Shipping Kits and Supplies to Local Census Offices:
    A continuing resolution at fiscal year 1999 funding levels would 
disrupt the shipment of kits and office supplies to the 520 local 
census offices. These materials must be received in the local census 
offices in time to support the recruiting effort as well as some early 
Census 2000 operations. Delays in the shipment of these materials would 
negatively impact the already tight schedules needed to ensure the 
successful start and completion of key data collection operations.
Telephone Questionnaire Assistance:
    Our contractor for Census 2000 telephone questionnaire assistance 
(TQA) must complete a number of critical activities during October to 
develop, test, and deploy the systems and equipment to more than 30 
individual call centers required for this key operation. Any funding 
disruption would jeopardize our ability to ensure that this important 
service is available to the public during the critical data collection 
period.
Island Areas:
    A continuing resolution at fiscal year 1999 levels could seriously 
disrupt conducting the census in the Island Areas. Census work starts 
with having Memoranda of Understanding signed and associated funding 
allocated for each of the Island Areas on October 1. If this is 
delayed, none of the preparatory activities can begin. Specific 
activities that need to occur in the first quarter of fiscal year 2000 
include the leasing of local office space, the procurement of office 
equipment and supplies, the installation of telecommunications systems, 
and shipping materials, manuals and training materials for conducting 
census operations for both the office staff and enumerators. Delays in 
their arrival will result in delays in the initial activities in 
preparation for the census. Our advisors are scheduled to travel to the 
Island Areas on October 1.
Accuracy and Coverage Evaluation (A.C.E.) Listing:
    The month of October will see an increase in A.C.E. address listing 
activities of five percent over the month of September, marking the 
peak of address listing activity for this project.
    The following table and graph (Attachments 1 and 2) outline the 
Continuing Resolution Requirements which we would need for the first 
month of fiscal year 2000.

Attachment 1.--Continuing resolution requirements--fiscal year 2000 
decennial census, October 1999

Baseline:
    Salaries and other expenses.........................     $37,080,897
    Contracts and other expenses........................      27,289,806
    Activities:
        ACE listing.....................................       7,599,773
        LUCA/ALR \1\....................................       5,000,000
    Rent................................................      13,398,873
    Other...............................................       1,354,375
                    --------------------------------------------------------
                    ____________________________________________________
      Subtotal..........................................      91,723,724
                    ========================================================
                    ____________________________________________________
Additional and ongoing costs not in baseline:
    Media buys..........................................      71,000,000
    Recruiting..........................................       8,500,000
    ACE listing.........................................         380,000
    Data capture........................................       5,067,751
    Other island areas MOU--first installment...........       4,600,000
    Shipping to LOCs \2\................................       5,000,000
    TQA development.....................................       1,947,476
    Other...............................................       1,305,431
                    --------------------------------------------------------
                    ____________________________________________________
      Subtotal..........................................      97,800,658
                    ========================================================
                    ____________________________________________________
      Grand total.......................................     189,524,382

\1\ Local update of census addresses/address list review.
\2\ Local census offices.

[GRAPHIC] [TIFF OMITTED] T11JY29S.001


    Question. Please provide a spending flow by quarter along with FTE 
for fiscal year 2000.
    Answer. The following tables show the fiscal year 2000 estimated 
quarterly spending flow for both dollars and FTE. Approximately $2.5 
billion is for salaries in fiscal year 2000. FTE is estimated to be 
98,677. It is important to note that all major contracts will be 
obligated in the first quarter. Quarterly distribution has not yet been 
finalized.

                     PRELIMINARY FISCAL YEAR 2000 ESTIMATED QUARTERLY SPENDING FLOW SUMMARY
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                 Fiscal quarter--
                                                                 -----------------------------------------------
                                                                       1           2           3           4
----------------------------------------------------------------------------------------------------------------
Program development and management..............................     $11,477      $6,495      $6,495      $6,495
    FTE.........................................................          61          61          61          61
Data content and products.......................................     $19,987    $129,080     $40,628      $4,929
    FTE.........................................................          42          42          42          42
Field data collection and support systems.......................    $526,778    $559,456  $1,619,986    $768,301
    FTE.........................................................       8,916      15,778      47,517      21,775
Address list compilation........................................     $12,050      $7,027     $12,293     $12,293
    FTE.........................................................         115         115         300         300
Automated data processing and telecommunications support........    $361,457     $13,437     $38,490     $63,994
    FTE.........................................................          18          18         599         600
Testing evaluation and dress rehearsal..........................      $8,918      $3,857      $3,857      $3,857
    FTE.........................................................          79          79          79          79
Puerto Rico and island areas....................................     $25,999     $13,967     $18,872     $12,578
    FTE.........................................................          83         338         521         265
Census marketing, communications, and partner-  ships...........    $151,015     $16,159     $16,159     $16,159
    FTE.........................................................         174         174         174         174
                                                                 -----------------------------------------------
      Totals....................................................  $1,117,682    $749,478  $1,756,780    $888,606
    FTE.........................................................       9,487      16,604      49,292      23,294
----------------------------------------------------------------------------------------------------------------

    Question. The 300,000 extra people, when are they going to be 
coming to work, how much are they going to cost?
    Answer. The additional 300,000 people needed for data collection 
operations will cost an estimated $1.031 billion. The vast majority of 
these additional people will be employed during the third fiscal 
quarter and into the early portion of the fourth fiscal quarter.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens
    Question. A census official is quoted in the July 27, 1999 
Anchorage Daily News as saying that Congress has told the Census that 
if a census survey question isn't called for by law or required to 
provide data for a government program, it has to be dropped. I'm 
informed that Census has dropped from its long form two questions 
relating to where people get their drinking water and whether their 
homes are connected to a public sewer system. However, the Denali 
Commission Act of 1998 (title III of division C of Public Law 105-277) 
creates a State-Federal commission to deliver certain Federal services 
in rural Alaska. Its duties include promoting rural development, such 
as water and sewer systems, as well as developing a ``comprehensive 
work plan for rural and infrastructure development.'' In carrying out 
its duties, the Commission is to provide assistance, seek to avoid 
duplicating services and assistance, and complement the water and sewer 
wastewater programs under section 306D of the Consolidated Farm and 
Rural Development Act (7 U.S.C. 1926d) and section 303 of the Safe 
Water Drinking Act Amendments of 1996 (33 U.S.C. 1263a). In order to 
complement rather than duplicate existing Federal services, it requires 
data enabling the Commission to develop a truly comprehensive plan for 
Alaska for rural and infrastructure development. In my judgement, the 
two questions considered for deletion from the long form are required 
in Alaska under the Denali Commission Act of 1998. Please advise us 
whether the Census will retain these question for the Alaska count.
    Answer. The Census Bureau recognizes the importance of these data 
to communities in Alaska. The Bureau is currently exploring other 
survey options for collecting these data early in the next decade, 
including the American Community Survey (ACS). The process for 
determining the questions included in Census 2000 found that although 
there are some Federal programmatic uses, no Federal mandates or case 
law requirements from the U.S. Federal court system explicitly require 
data on source of water. In response to our request to document the 
uses of census data to determine the topics for Census 2000, Federal 
agencies did not identify any explicit legislation to qualify source of 
water or sewage disposal as mandatory or required. As a result, we did 
not include them in our Census 2000 subject submission to the Congress 
on March 31, 1998, which was based on the premise that the proposed 
content of Census 2000 must be justified with either mandated or 
required uses of the data. Following this submission the Census Bureau 
fully considered all expressed concerns about question topics before 
finalizing questionnaire content and design. To date, we have printed 
over 227 million questionnaires.
    Question. Bush Alaska has cities and regional hubs which include a 
large seasonal and mobile population, which includes a number of Alaska 
Natives eligible for Federal services. Will the Census be using the 
long form in cities other than Anchorage and in every community off the 
road system in Alaska? If not, please provide the basis for 
discriminating among communities.
    Answer. The long form will be used in all communities (small and 
remote), including the enumeration procedures for cannery and fishing 
workers who have relocated during seasonal employment opportunities.
                                 ______
                                 
             Question Submitted by Senator Pete V. Domenici
    Question. Even without the budget amendment of $1.7 billion, why is 
it costing so much to do the Census next year? In 1990, the 
appropriation for the decennial census was $1.4 billion, and that 
census did not use sampling in the manner the Administration had 
contemplated for 2000. Adjusting for inflation and the growth of the 
population, conducting a 1990-type census in 2000 would cost about $2.1 
billion. Yet the Administration began by asking for $2.9 billion 
instead for 2000, and then when the Supreme Court decision meant that 
Census couldn't use the cost-reducing sampling techniques it had 
planned on, the cost goes up by another $1.7 billion. What are the 
other factors besides inflation and demographics that are going on 
here?
    Answer. There are many factors that contribute to the increased 
cost of conducting Census 2000. There are four major categories that 
increased costs above 1990 for the original sampling plan:
Standard Cost Increases
    Inflation.
    Increases in housing units from 104 million in 1990 to 118 million 
in 2000.
    Field infrastructure increases for a larger number of offices to 
manage the increased workload.
    Increase in workload associated with the growth in group quarters 
and special places, such as college dormitories and nursing homes.
    Federal wage rates adjusted for locality pay increases.
Cost Increases above Standard
    Field operations with wage rates adjusted to be competitive in 
hiring under local economic conditions; based upon recommendations from 
a labor economist contractor hired to conduct pay studies and validated 
in the Dress Rehearsal.
    Third class postage changed to first class.
    Bigger offices required for increased workload; higher cost per 
square foot.
    Growth in information technology costs that out-paced inflation.
    Printing increases that out-paced inflation.
Redesigned and New Operations
    Pre-notice letter expanded in 2000 to heighten awareness of Census 
2000.
    Telephone Questionnaire Assistance contract to meet public demand 
for multi-lingual, toll free telephone assistance.
    Language program increases in 2000 to facilitate data collection 
from linguistically isolated populations.
    Redesigned Address List Development program to compile the most 
complete and accurate Master Address File (MAF) ever.
    Post Enumeration Survey workload of 150,000 housing units in 1990 
increased to about 300,000 housing units for the Accuracy and Coverage 
Evaluation in the 2000 Census plan.
Increases Due to Declining Cooperation
    65 percent mail response rate in 1990, expected to decline to 61 
percent in 2000.
    Additional supervision to combat high turnover of field staff.
    Paid advertising added in 2000 to heighten awareness of Census and 
foster public cooperation.
    In addition to the factors identified above, the budget amendment 
of $1.7 billion for the revised census plan was driven by the need to 
add additional staff and infrastructure to handle increased volume, as 
well as the addition of new operations to improve coverage and increase 
quality, following the Supreme Court decision. These are explained in 
greater detail in the question on the breakout and detail of the $1.7 
billion request.
                                 ______
                                 
           Question Submitted by Senator Kay Bailey Hutchison
    Question. I am concerned that Americans living overseas are not 
included in plans for Census 2000. The Senate Appropriations Committee 
has directed the Census to work with the Department of State to include 
Americans living abroad in Census 2000. Would you please outline 
efforts which have been made to address this matter to date, and 
describe additional steps the Census Bureau and State Department will 
be taking to ensure that Americans living abroad are counted.
    Answer. As it did in 1990, the Census Bureau will enumerate 
overseas U.S. military personnel and their dependents along with 
overseas civilian Federal employees and their dependents using Federal 
administrative records in Census 2000.
    Regarding other U.S. citizens abroad, the Census Bureau has given 
this issue very serious consideration. The Census Bureau Director 
testified on this topic before the House Subcommittee on the Census on 
June 9. Census Bureau staff met with representatives of overseas 
Americans groups prior to that. Census Bureau officials also met with 
leaders of groups representing overseas Americans on July 23.
    Lack of time for adequate planning is currently the biggest issue 
in preventing the enumeration of non-federally affiliated Americans 
abroad in Census 2000. We are only months away from Census Day. All 
major operational plans for Census 2000 have been finalized; some 
procedures have already begun. Implementing the numerous interrelated, 
complex tasks in conducting a census requires the undivided attention 
of Census Bureau management and staff. Efforts to introduce new 
procedures to the design will place Census 2000 at risk.
    Also, cost would likely be significant and we could not conduct an 
overseas enumeration within the existing budget request. We would need 
additional staff, additional forms for overseas enumeration, 
significant funding for shipping to and from many countries, as well as 
controlling and capturing the information on the returned forms. Even 
if the Census 2000 clock allowed us to add this operation, it would be 
extremely costly and result in incomplete and unreliable data.
    The Census Bureau may be able to count U.S. citizens abroad in the 
2010 decennial census, but some extremely difficult technical issues 
would need to be resolved.
    First, the Census Bureau cannot estimate accurately the size of the 
universe of this population and does not have a means of developing an 
address list or other comprehensive control file. Without a defined 
universe of households, we would have no way of knowing if we had 
conducted a full and accurate count. Without a control mechanism that 
would serve as a basis for follow-up on nonrespondents, the enumeration 
of the overseas component would essentially be voluntary, which would 
add bias to the results. The result of such a biased and inaccurate 
enumeration of the private overseas American population could distort 
the population of each state, potentially affecting the apportionment 
of congressional seats.
    Second, we have concerns about correcting and detecting any invalid 
responses. Requesting passport numbers or Social Security Numbers will 
not solve this problem since not all citizens overseas have these 
documents. For example, in Canada a passport is not required for U.S. 
citizens. Many citizens overseas may not have an SSN, particularly 
dependants. There is no practical way to verify either U.S. citizenship 
or the home state designation through this voluntary, uncontrolled type 
of enumeration. The Census Bureau would need to establish appropriate 
criteria for making such a claim; e.g. last state of residence, state 
of birth, state where registered to vote, state claimed for income tax 
purposes, etc., but this needs to be examined further.
    Third, even if issues of accuracy, validation and verification 
could be resolved, it would be much more operationally complex to 
include all overseas American citizens in the census count than may 
appear at first glance. Processing of results would require matching of 
files, development of procedures for resolving matching problems, and 
deciding how to handle unmatched cases. The Census Bureau would need to 
obtain the commitment of considerable staff from the State Department. 
The State Department would have to provide address lists of embassies 
and consulates by country worldwide, along with current estimates of 
the number of Americans living in each embassy/consular jurisdiction. 
We would have to swear in and train State Department employees in 
embassies all over the world, providing them with special sworn status 
to address legal confidentiality concerns. All this would require a 
substantial amount of negotiation, planning, and coordination between 
the two agencies.
    Question. If partnerships are a centerpiece of the Census Bureau's 
outreach efforts, why has the Bureau, to date, refused to partner with 
American organizations overseas to enumerate in Census 2000 all 
Americans living and working abroad?
    Answer. The purpose of the partnership program is to reach out to 
local communities to improve the count in the 2000 Decennial Census. As 
explained in the answer to the previous question, there are currently 
no plans to enumerate non-federally affiliated Americans abroad in 
Census 2000.
    The Census Bureau has already begun the process to establish 
contacts with organizations representing Americans living abroad. We 
recognize the importance of such communication for the development of 
an operationally and statistically sound plan for counting private 
Americans living abroad in a future decennial census. On July 23, 1999 
Census Bureau officials held a half day meeting with members of the 
Census 2000 Coalition, a group representing Americans living overseas, 
to begin a dialogue on the policy, operational, accuracy, and resources 
issues of counting private Americans living abroad. The purpose of the 
meeting was for the Census Bureau to understand the needs and 
expectations of the Coalition with respect to this enumeration, to 
explain to the participants the nature of the policy, operational, and 
accuracy issues that need to be resolved to implement this enumeration 
in a decennial census, and to begin a joint exploration of possible 
solutions for implementation in a future census.
                                 ______
                                 
             Question Submitted by Senator Daniel K. Inouye
    Question. National Standard 8 of the Magnuson-Stevens Fishery 
Management and Conservation Act states that conservation and management 
measures should account for effects on fishing communities. Several 
fishery management councils have pointed out the difficulty that they 
have in assessing such impacts. The problem, as I understand it, is a 
lack of good socioeconomic fisheries data. I am told that census data 
aggregates data for persons employed in fishing industries with data 
for those in agriculture and mining. Self-employed fishermen are 
counted with farmers and foresters. What are the Administration's plans 
for correcting this problem when the year 2000 census data are 
assembled?
    Answer. The plans for Census 2000 data include the presentation of 
data for occupation in a variety of detail. The example presented in 
the inquiry is an aggregation or grouping that is referred to as the 
``major'' groupings. Data in a more detailed table that we currently 
plan to tabulate will separate fishermen from the other components of 
the agriculture and forestry employed people and occupations. In 
addition to data on CD-ROM or in tables and profiles, the American 
Factfinder, designed to disseminate data on the internet, will also 
present Census 2000 data on persons employed in the fishing industry. 
The variations in data presentation are also related to geographic 
sizes of communities and to disclosure prevention. We welcome your 
comments and also encourage data users and program planners to contact 
us if the geographic detail and precision of the occupation data are 
not useful for fishery management councils. The Bureau and its partners 
in data dissemination in the state and local areas will be willing to 
work with users to present the data that America needs.
                          DEPARTMENT OF STATE

STATEMENT OF PATRICK F. KENNEDY, ASSISTANT SECRETARY OF 
            STATE FOR ADMINISTRATION
    Senator Gregg. OK, we will reconvene here.
    We have Mr. Kennedy from the State Department. It appears 
he does not have as much staff as the Census Bureau; that is 
good to see. That is a plus to start off.
    Mr. Kennedy. Thank you, sir.
    Senator Gregg. Please, do you have anything you want to 
tell us?
    Mr. Kennedy. I do have a written statement, sir, if I might 
submit that for the record.
    Senator Gregg. Yes, of course.

                  Oral statement of Patrick F. Kennedy

    Mr. Kennedy. And then if I could give just a brief summary, 
first of all, I would like to thank you for the opportunity to 
appear before you to discuss the President's budget amendment 
that increases the fiscal year 2000 appropriation request for 
the security and maintenance of missions abroad. It increases 
it by $264 million, and it also increases the out-year 
appropriation figure request by $150 million each year, as 
well.

       Highlights of State's acquisition and construction program

    As you know, sir, we are approaching the anniversary of the 
bombing in Nairobi and Dar Es Salaam and last fall, after those 
tragic events, thanks to your support, the President's request 
for a $1.4 billion emergency security appropriation was passed 
and that has allowed us to do an awful lot. Briefly, I would 
like to summarize what we have been able to do.
    That money has been able to carry us forward and put on a 
large-scale acquisition and construction program. In Nairobi we 
continue to make progress on the construction of chanceries. In 
Dar we have moved into our temporary facilities on February 4. 
In Nairobi we are going to be moving into our interim facility 
in August. In Nairobi we have a permanent chancery site under 
contract. In Dar our first choice turned out not to be 
available, but a new site has been identified and is being 
evaluated. Three American design/build firms have been 
identified through a competitive process to submit bids on 
these two facilities.
    Progress is also being made to relocate other priority 
posts. In Doha, Qater, on March 22, the chancery moved into a 
more secure temporary facility and a lease agreement for a 
permanent facility has been signed. In Istanbul, Turkey, a site 
has been identified and a purchase option has been signed. In 
Tunis, where we already own a site, we are preparing a package 
for architectural and engineering services. And pending your 
concurrence, we have plans to move forward in Kampala and 
Zagreb, as well, and preferred new sites have been identified 
in Rio de Janeiro and Sao Paulo, and these two will be pursued 
upon your concurrence.
    We can also report a lot of progress in our physical and 
perimeter security programs. We have signed implementation 
contracts with two major American construction companies who 
will assist the department in executing the physical security 
upgrades. Since the beginning of this fiscal year, teams have 
visited 66 posts to install, repair or replace forced entry and 
blast resistant doors and windows. We have acquired 35 real 
estate acquisitions at 15 posts to increase the setback of our 
facility from areas that are not under our control.

        Budget request for State's security construction program

    I wanted to say a few words about these programs because I 
think this has demonstrated the accomplishments the department 
has been able to engage in, and we have an aggressive security 
construction program. We have done this, and we can continue to 
do so, and your approval of the President's budget request and 
budget amendment is critical to sustain the momentum with which 
we have begun this program.
    The department's Foreign Building Program, which is under 
my jurisdiction, has developed a strategy for pursuing an 
effective multi-regional, concurrent construction program. This 
strategy is derived from the experiences that we gained from 
the Inman program and our strategy includes a rigorous 
prioritization process for projects that include inputs from 
the Under Secretary for Management and the Under Secretary for 
Political Affairs to make sure that we are building the right 
properties in the right locations to advance U.S. national 
interests. It also includes input from the Bureau of Diplomatic 
Security and Consular Affairs Bureau, the regional bureaus, as 
well as the intelligence community.
    These increases in the security construction program 
cannot, however, come at the expense of our ongoing regular 
programs. The request for the regular programs reflects the 
department's commitment to provide safe and secure work 
environments for our employees overseas and to maintain and 
rehabilitate our older facilities to make them more efficient 
by extending their useful life.
    The task in all of this is enormous. We have to 
expeditiously locate safe facilities for more than 20,000 staff 
in 50 different U.S. Government agencies that work in our 220 
vulnerable platforms overseas. We have a plan, and we are 
requesting the resources to implement that plan.

                           prepared statement

    The key to this program is your approval of the President's 
request, including the advance appropriations. As was pointed 
out in Admiral Crowe's report, the key to a successful program 
is a sustained commitment to funding over several years.
    I will be glad to take any questions you might have, sir.
    [The statement follows:]
                Prepared Statement of Patrick F. Kennedy
    Mr. Chairman, I would like to thank you, Ranking Member, Senator 
Hollings, and the other Members of this Committee for the opportunity 
to discuss the President's Budget Amendment to increase the fiscal year 
2000 appropriations request for Security and Maintenance of United 
States Missions by $264 million. In addition, the proposal increases 
the request for advance appropriations by $150 million per year for 
fiscal years 2001-2004. These additional funds would be used to 
accelerate capital acquisition and construction of secure diplomatic 
and consular facilities overseas. In total, this $600 million increase 
supports a sustained commitment to the security of our personnel 
overseas.
    Mr. Chairman, we are rapidly approaching August 7, the one-year 
anniversary of the cowardly attacks on our embassies in Nairobi and Dar 
es Salaam. How can any of us forget the shock, the horror, and the 
sorrow, we all felt that day. These events remind us and served to 
demonstrate how vulnerable many of our facilities overseas are to 
terrorist attack. Last fall, in an immediate response to those tragic 
incidents, the Congress approved $1.4 billion in Emergency Security 
Appropriations to begin the task of making our overseas facilities 
safer for our employees and our citizens visiting abroad. I want to 
thank you Mr. Chairman and members of this Committee for your support.
    Much progress has been made in recent months to put the 
infrastructure in place to carry out a large-scale acquisition and 
construction program. Let me give you an update on this progress and on 
our implementation of the fiscal year 1999 Emergency Supplemental 
Appropriation. We have sought help from the private sector and 
consulted with OMB, GSA, DOD, major multinational corporations, and 
others to benefit from their expertise and their approaches to large 
scale, cost effective construction. We have detailed month-by-month 
plans for obligating funds and implementing programs, and we are 
providing careful oversight through weekly status meetings and 
quarterly offsites. Members of your staff were invited to attend the 
offsite held on June 25. Our implementation is also receiving the 
oversight and scrutiny of the Department's Office of the Inspector 
General and the Congress's General Accounting Office. In addition, the 
Department submits regular reprogramming notifications to the Congress 
for your review prior to our obligating funds for these capital 
projects.
    In Nairobi and Dar es Salaam, we continue to move ahead with the 
construction of our new chanceries. The embassy in Dar es Salaam moved 
from temporary facilities to a more secure new interim office building 
on February 4 of this year. In Nairobi, the new interim chancery has 
been completed and the post will be moving from its temporary 
facilities within the next few weeks. In Nairobi, we have a permanent 
chancery site under contract. In Dar es Salaam, while our first site 
was not available, a new site has been identified and is being 
evaluated. Three American Design/Build firms have been selected to 
compete for the construction of these two new facilities and we expect 
to award the contract before the end of this fiscal year.
    Progress is also being made in our efforts to relocate priority 
(high risk) posts. In Doha, on May 22, the chancery moved into more 
secure temporary facilities, and a lease agreement for a permanent 
facility has been signed. In Istanbul, a site has been identified and a 
purchase option has been signed. In Tunis, where we have a site, we are 
preparing a package to acquire Architectural and Engineering (A&E) 
services. Pending your concurrence, we plan to move forward with 
Kampala and Zagreb, where we have the ability to put these projects 
under contract immediately. Preferred sites have also been identified 
in Rio de Janeiro and Sao Paulo. These, too, will be pursued upon your 
concurrence.
    We can also report progress in our physical and perimeter security 
programs. As of June 30, we have obligated or committed over $122 
million in the Upgrade Worldwide Security Program. Two Implementation 
Contracts have been awarded to American construction companies to 
assist the Department in executing physical security projects. 
Department and Contractor teams visited 19 posts in June and another 20 
will have been visited by the end of July. Through June, five window 
film contracts totaling $15 million have been awarded. Teams have 
visited 66 posts since the beginning of the fiscal year to install, 
repair, or replace forced entry/blast resistant doors and windows. Last 
month alone, the Department sent funds to 46 posts in support of post-
managed physical security upgrades. We have completed 35 real estate 
parcel acquisitions at 15 post to increase setback of our chanceries 
from public streets and other uncontrolled areas. Negotiations and 
investigations continue on 44 other setback acquisitions at 20 posts. 
In our staffing efforts, we have selected nearly 80 percent of the 
candidates to fill the 68 additional positions approved.
    I wanted to say a few words about these program accomplishments 
because much has been said about the Department's ability to implement 
an aggressive security construction program. I think we can; and, we 
are doing so. Your approval of the President's request and budget 
amendment is critical to sustain the momentum with which we have begun 
this program. The Department's Foreign Buildings Program has developed 
a strategy for effectively executing a multi-regional, concurrent 
construction program. This strategy is derived from our Inman 
experience with simultaneous execution of large, multi-year projects 
and from careful review of construction industry best practices. Our 
strategy includes a rigorous prioritization process for projects that 
includes input from Under Secretaries for Management and Political 
Affairs, the Bureaus of Diplomatic Security and Consular Affairs, the 
regional bureaus, tenant agencies, and the intelligence community. It 
also includes an emphasis on site acquisition so projects can be 
initiated, and a design/build contractual methodology which speeds 
completion of the projects, as well as enhanced staffing to ensure 
effectiveness and proper oversight.
    The President's Budget amendment increases the fiscal year 2000 
appropriations request for Security and Maintenance of United States 
Missions by $264 million. In addition, the proposal increases the 
request for advance appropriations by $150 million per year for fiscal 
years 2001-2004. These additional funds would be used to accelerate 
capital acquisition and construction of secure diplomatic and consular 
facilities overseas. Specifically, these fiscal year 2000 funds would 
support the full construction costs of four new diplomatic facilities 
(current plans call for Istanbul, Abu Dhabi, Luanda, and Tunis) and 
will allow for the purchase of sites and design at five to eight 
additional posts. The posts listed for site and design may vary 
slightly, depending on the length of time required to acquire the sites 
and possible priority adjustments.
    While we seek these increases in the security construction program 
funding, they cannot come at the expense of our ongoing regular 
programs and our fiscal year 2000 request. These programs provide the 
necessary infrastructure platform that will allow us to move out 
smartly on an expanded capital construction program. The request for 
our regular programs reflects the Department's commitment to provide a 
safe and secure work environment for our employees overseas. In 
addition, the program enables the Department to maintain and 
rehabilitate facilities overseas and make more efficient use of them by 
extending their useful life. Extending the useful life of our 
facilities by reasonably maintaining our facilities is an investment in 
the long-term future. Failure to do so can only lead to total 
replacement of facilities in the near future, at a much greater cost.
    Our task is enormous--to expeditiously locate into safe facilities 
the more than 20,000 embassy staff from more than 50 agencies who are 
presently working in over 220 vulnerable buildings. We have a plan, and 
we are requesting the resources to implement the plan. The journey 
began with the fiscal year 1999 Emergency Supplemental Appropriation 
and it continues with the President's budget request and budget 
amendment. Key to this program is your approval of the President's 
request, including the advance appropriations. As was pointed out 
starkly in Admiral Crowe's report, the ``Achilles Heel'' to having a 
successful program is the lack of commitment to sustained funding over 
several years. Without it, we will be doomed to failure. Every day we 
delay, is another day U.S. government employees and their families work 
and live in jeopardy.
    Thank you, Mr. Chairman, for the opportunity to appear before your 
committee this morning, and I look forward to working with you to 
ensure a successful program. I would be pleased to answer any questions 
you or Members of the Committee might have.

                         Questions and answers

    Senator Gregg. Well, I sort of hoped you folks were going 
to come up here and give me a reasoned response, versus giving 
me the junk that we are getting from the administration on this 
issue.
    Advanced funding is not going to be tolerated by this 
committee. The administration sends up a proposal in its 
original budget for $300 million of funding this year, and $1.4 
billion is represented by the Crowe Commission, and then tries 
to game the Congress by sending up a supplemental where it 
claims that it is increasing the funding without giving us any 
offsets--that is gamesmanship.
    This committee has been stalwart in trying to address the 
problems of the State Department, and we are getting very tired 
of the State Department playing the tunes of an administration 
which is trying to game us.
    What I had hoped you were going to tell me was where we are 
going to get offsets; how we are going to pay for this; and 
give us some sort of intelligent plan for it. Instead, you give 
me a lot of pablum which is a restatement of the 
administration's position, and it is not constructive. It is 
not constructive to me.
    Now, I suggest you go back and talk to your bosses, and you 
tell them that I am committed to increasing security, and I 
think I have backed that up with dollars.
    Mr. Kennedy. You have, sir.
    Senator Gregg. But I expect them to, when the 
administration sends up a phoney proposal, as they did in this 
instance, without any way to pay for it, then I do not expect 
people who are supposed to be protecting the people out there 
to sign onto that proposal carte blanche. I expect there to be 
some sort of response that recognizes that your first 
obligation is not to Bill Clinton and his political pressures; 
your obligation is to those people out there and their families 
who are at risk. And so far, I have not seen that fulfilled.
    And that statement you just read was really sort of an 
affront, to come up here and again suggest advanced funding and 
to not suggest offsets.

              Downsizing the size and number of embassies

    Now I would suggest some ideas that I would like to get a 
response to. I am not going to ask you for them now because I 
suspect, in light of your statement, that it would not be 
constructive, but I would like some proposals that would 
substantively address some of the following issues.
    One, it seems to me that we are spending a lot of money to 
build a lot of facilities, and it does not appear to me that 
this administration is going to come up with the money to build 
all the facilities we need.
    Therefore, we have to take a look at how we can build 
facilities out that we need and how we can merge facilities and 
be more efficient in our use of the facilities. That means 
taking a look at what we do with the roving ambassadors in the 
Caribbean, whether those types of proposals make sense in areas 
where we do not have high-impact activity. It works in the 
Caribbean, which is our neighbor, so it should work in places 
where we do not have a major relationship.
    I think we have to take a look at working with some of our 
traditional allies and merging facilities with the United 
Kingdom or Canada or even Australia, in again, areas where we 
do not have high-impact activities.
    We have to take a look at whether or not we should have 
facilities that are fully manned, scale down our operations in 
some areas, bring in ambassadors but maybe not have the panoply 
of support that they would require if they were in a really 
high-active position versus a more moderate active position.
    Those are steps, and I am sure there are other steps which 
would control some costs, reduce the amount of money it is 
going to take us to get embassies up to security level.

                 Improving security at ``soft'' targets

    I also would like to get some ideas on how we get beyond 
the security of the embassy and into the security of the softer 
targets which are going to become the natural targets when we 
harden the embassies. I do not want to harden an embassy in 
some country and then have a school attacked because that was a 
soft target. In those countries where it looks like we are at 
risk, I do not think we limit ourselves to looking at the 
embassy. You look at the places where our staff lives.

                                Offsets

    And then last, I expect the State Department to give me 
some offsets. They do not necessarily have to come from State 
but I expect there to be some offsets sent up with the need to 
expand this spending. There is no question we have to find more 
resources to do this job right but you just cannot do what this 
White House has decided to do, which is to try to put out a 
positive press release and not take any of the pain in making 
the tough fiscal decisions.
    So I am sure there is some creativity down there that maybe 
is being suppressed because you need to tow the line for the 
administration, but this is not an area where we can play 
political games, in my opinion. We are talking about lives. We 
know that we are at risk. On August 7 this summer it is all 
going to be brought back to us.
    So let me simply say that I am very disappointed. I do not 
think we have moved this ball down the field much, but I will 
move the ball down the field and when I start finding offsets, 
there are going to be a lot of people at the State Department 
who are not going to be happy with it. So I would rather do it 
with you rather than independently.

                         Mr. Kennedy's response

    Mr. Kennedy. Senator, you have been a staunch supporter of 
the department, and the support you have given us has been 
fully and completely appreciated, and we will be getting back 
to you to answer the questions you posed.
    If I might make a couple of brief comments?
    Senator Gregg. Yes.
    Mr. Kennedy. We have been looking at the size of our 
facilities overseas. The Secretary and the President are very, 
very strong believers in universality of representation with a 
limited number of exceptions.
    Senator Gregg. I understand that. I understand that. But 
there has got to be somebody down there who says universality 
may be a wonderful theoretical idea but it is not affordable.
    Mr. Kennedy. You are entirely correct that in places such 
as the Caribbean, where there are a number of microstates, that 
a circuit-riding ambassador and no resident presence works.
    We feel that if we are going to advance U.S. national 
interests, serve as the first line of border security, promote 
economic development and garner the political intelligence that 
we need to provide decisionmakers with the backup they need, 
that a resident presence, limited though it may be, is very, 
very important to us in order to do that. And we think that we 
can size embassies correctly in terms of the number of 
employees that are there.
    But, as you well know, there are many other agencies that 
also occupy our embassies. The Foreign Agricultural Service and 
the Secret Service believe that they have to be located, for 
example, in many countries in order to advance sales of U.S. 
farm products or to engage in activities to combat 
counterfeiting. So we size the embassies to serve as platforms 
for those activities, as well.
    So we do downsize. We do set the parameters of who is at 
embassies in the State Department based upon our analysis of 
national interest and make those things as small as possible, 
using a model that we developed several years ago called the 
overseas staffing model, that brings those numbers down.
    In terms of offsets, in terms of the proposal, the budget 
amendment that is before you right now, that budget amendment 
is an offset amendment for fiscal year 2000. It is within the 
President's budget.
    Senator Gregg. Yes, but the offsets are phony.
    There are two minutes left on the vote so I am going to 
have to go and vote.
    Senator Stevens. I have just come down because I wondered 
about the emergency action in the House. Did you request that?
    Senator Gregg. They are not involved in that. Just the 
Census was part of the emergency.
    Mr. Kennedy. The State Department budget request, Mr. 
Chairman, is not an emergency request.
    Senator Gregg. We talked with the Census Bureau. We asked 
them how it could be an emergency if the Constitution called 
for it 200 years ago.

                     Additional committee questions

    Senator Stevens. That was my question. I am sorry to be 
late. I was involved with something else but I appreciate it.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted by Senator Judd Gregg
    Question. The recently developed ``Nairobi 2010'' plan presents 
innovative options for consolidating various administrative functions 
at the regional level, but it ignores opportunities for consolidating 
political and economic functions.
    How could the ``Nairobi 2010'' model be expanded to include 
political and economic operations?
    Answer. The working group that was involved with the Nairobi 2010 
model did in fact look at the entire USG presence in the region. The 
group found that the U.S. Government maintains a very limited 
diplomatic presence in the East Africa region and therefore was unable 
to identify any potential for regionalizing policy staffs in the area. 
An interagency review panel concurred with this conclusion.
    Question. In countries where classified requirements are minimal, 
what opportunities exist to undertake joint building projects with 
close allies such as the United Kingdom, Canada, and Australia? Beyond 
actual co-location, what other functions could be shared?
    Answer. We have considered this approach in the case of one of our 
embassies in East Asia and have found that difficulties arise with 
regard to national security concerns. Co-location creates a serious 
potential for compromise of our classified and sensitive communications 
and information systems. Even if a particular post only conducted 
minimal classified or sensitive activity, that post shares the same 
system with other U.S. posts, which may process more classified or 
sensitive information.
    With regard to other shared functions the Department has on a 
limited basis discussed sharing contract support on the administrative 
side at some of our posts. However, to go beyond the common use of 
contractors, to the use of direct hire resources is a sizable leap and 
would require the governments involved to surmount considerable 
bureaucratic and legal hurdles.
    Question. Ambassador Rohatyn, in Paris, has developed a new form of 
representational office referred to as an American Presence Post (APP). 
APPs are tailored to address a specific mission, such as trade. The 
first such post was recently established in Lyon, France. APPs involve 
as few as one American, provide limited American citizen and consular 
services, lease office space, have all administrative functions handled 
centrally by the embassy, and meet security standards by presenting a 
very small target. Amb. Rohatyn's approach has allowed him to expand 
U.S. presence and access at only a small increase in cost.
    How do we broaden the American Presence Post concept from a 
satellite operation within a given country to the sole presence in 
appropriate countries?
    Answer. The American Presence Post is a significant departure from 
the more conventional form of diplomatic representation and offers a 
number of significant benefits. However, there are still a number of 
systemic concerns about its broader applications. The Department has in 
the past had one-person posts, both consulates and embassies, and where 
our interests are extremely limited, this may well make sense. However, 
with the globalization of issues--trade, narcotics trafficking, 
organized crime, and other humanitarian concerns--there are very few 
countries in which our diplomatic engagement can be confined to a range 
of issues that can be properly handled by one or two persons.
    Question. The American Ambassador to Barbados is also accredited to 
several other island states in the Eastern Caribbean. The embassy and 
staff are located in Bridgetown, Barbados, and personnel travel as 
necessary to fulfill their diplomatic duties. This example of regional 
representation is unique, although other opportunities clearly exist.
    How do we translate the ``circuit rider ambassador'' approach that 
has proven successful in the Eastern Caribbean to other regions of the 
world? What areas or regions do you believe are most suited to regional 
representation?
    Answer. Prior to 1980 the U.S. had a number of ``circuit rider 
Ambassadors.'' The U.S. government determined that this concept was not 
bearing sufficient fruit diplomatically and therefore discontinued this 
approach on a routine basis. Our national interests are now so varied 
and the need for coalition building around the globe so essential to 
our continued global leadership that it is now essential to have 
accredited Ambassadors in almost every country. That being said, there 
is certainly room for a more flexible, dynamic and creative approach to 
modern diplomacy and the Secretary is committed to studying new 
approaches to global representation.
    Question. Please identify offsets to the Department's request for 
$264 million for embassy security construction, submitted in the June 
budget amendment.
    Answer. The Department's request for $264 million for embassy 
security is part of an overall $2.3 billion Administration proposal for 
additional fiscal year 2000 and out-year funding for the Census, INS, 
and several other agencies. It is our understanding that these fiscal 
year 2000 funding increases are fully offset and will not diminish the 
fiscal year 2000 surplus. However, because International Affairs 
(Function 150) funding is already stretched to the limit, none of the 
offsets for the fiscal year 2000 budget amendment come from the 
Department of State or other Function 150 programs.
    The following is a brief summary of the Administration's proposed 
offsets to this $2.3 billion budget amendment package. The Office of 
Management and Budget can provide your staff with any additional 
information required.
  --Offsetting fully the $230 million INS portion of the package from 
        other programs within the Department of Justice and through a 
        new domestic visa processing fees.
  --Modifying the estimated tax ``safe harbor'' for individuals. This 
        proposal is anticipated to increase fiscal year 2000 receipts 
        by $1.8 billion.
  --Revising the Welfare-to-Work program that postpones to fiscal year 
        2001 some of the program's financing. This action would reduce 
        mandatory budget spending by $250 million in fiscal year 2000.
  --Increasing by $250 million the savings proposal for the Federal 
        Family Educational Loan program.
    Question. Is the focus on improving security at our embassies 
coming at the expense of American schools and residences abroad? What 
is the Department doing to protect these ``soft'' targets?
    Answer. In the aftermath of the tragic bombings in East Africa, 
posts around the world expressed concern about the safety of our 
children in schools overseas and our employees and their families in 
their residences. We in the Department share this concern and want to 
make certain posts take advantage of available resources to bolster the 
security posture of USG-owned or leased residences and at overseas 
schools where USG dependents are enrolled.
    Although direct financial assistance to improve security at 
privately owned overseas schools is not possible, professional advice 
and continued close communication between posts and school officials 
will assist schools in maintaining a good security posture. The 
Department provides physical security specifications so that schools 
can build or upgrade according to our standards. Regional Security 
Officers and Administrative Officers are encouraged and instructed to 
work closely with schools in which USG dependents are enrolled to 
identify ways to upgrade their preparedness and response capabilities. 
When improvements can be made, recommendations are communicated to the 
school management. Posts are also encouraged to be as generous and as 
forthcoming as possible with their time and expertise to see that these 
recommendations are implemented.
    At some posts, schools are already implementing recommendations. 
Schools have purchased two-way radios for buses, improved perimeter 
security, hired additional security guards, and conducted drills. In 
addition, the Department's Overseas Schools Advisory Committee has 
published a how-to manual of disaster preparedness entitled, ``Creating 
a Comprehensive Emergency Procedures Manual for Overseas Schools.'' 
This manual has been distributed to school administrators and 
administrative officers at all posts. The manual is a step-by-step 
guide written in plain language to develop security strategies. We urge 
posts to use this document as a blueprint for effective school 
emergency plans.
    With regard to residences, the Department has spent over $6 million 
this fiscal year to improve residential security. The Department's 
residential security program equips residences with window grilles, 
door locks, lighting, alarms, upgraded doors and windows, and other 
security improvements as necessary. Shatter resistant window film will 
be installed on residences worldwide, and, at two posts, $570,000 has 
been provided for anti-ram walls protecting three residential 
compounds.

                         conclusion of hearing

    Senator Gregg. OK. Well, rather than tie you up here----
    Mr. Kennedy. I would be glad to wait at your convenience, 
sir.
    Senator Gregg. No, I think I have asked my questions and 
you get the sense of where I want to go. We will just continue 
to work with you. Thank you.
    [Whereupon, at 10:42 a.m., Thursday, July 29, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                  <all>

</pre></body></html>
